  UNITED STATES DEPARTMENT OF AGRICULTURE

        OFFICE OF INSPECTOR GENERAL



STATEMENT OF THE HONORABLE PHYLLIS K. FONG

             INSPECTOR GENERAL



                     Before the

       Subcommittee on Department Operations,
              Oversight, and Credit

              Committee on Agriculture

            U.S. House of Representatives

                 December 1, 2011
Good morning, Mr. Chairman, Ranking Member Fudge, and Members of the Subcommittee. I
am joined by Gil Harden, the Assistant Inspector General for Audit and Karen Ellis, the
Assistant Inspector General for Investigations. Thank you for the opportunity to update the
Subcommittee on the Office of Inspector General’s (OIG) work on preventing fraud in the
Supplemental Nutrition Assistance Program (SNAP) and reviewing the Department’s
information technology (IT) programs for compliance with all applicable laws and regulations.

Database Analysis to Reduce SNAP Fraud

As part of our ongoing efforts to help minimize fraud, waste, and abuse within SNAP, OIG is
performing a series of audits analyzing 10 States’ participant databases.1 These databases store
critical information which helps identify ineligible participants who are receiving benefits.
Detecting and investigating program violations is one of the State agencies’ primary responsibilities.
State agencies are required to check their information against Federal and State databases to ensure,
for example, that people using deceased individuals’ social security numbers (SSN) do not receive
benefits, or that their submitted income is the same as is listed in official records. If applicants do
not meet eligibility requirements at the time of application or on a recurring 6 to 12 month basis,
State agencies are required to disqualify them. Doing so ensures that taxpayer dollars go to those
who are truly in need.

To monitor State agencies’ progress in identifying and preventing improper payments, we
checked several of these databases ourselves. We have completed work in two States—Kansas
and Florida—and found a total of 3,572 recipients who were receiving potential improper
payments: 2

    •   878 recipients were either deceased or using the SSNs of deceased individuals. 3 State
        agencies did not investigate individuals using the SSNs of deceased persons due to a
        backlog stemming from increased participation in SNAP in recent years, as well as a
        system crash. Additionally, some recipients received benefits because State agencies
        only checked State death records, which do not identify deceased participants who died in

1
  The 10 States are Alabama, Florida, Kansas, Louisiana, Massachusetts, Mississippi, Missouri, New Jersey, New
York, and Texas.
2
  Kansas: 883; Florida: 2,689.
3
  Kansas: 71; Florida: 807.

                                                       1
        a different State, instead of checking against the required national Social Security
        Administration database.


    •   160 active participants were previously disqualified from receiving SNAP benefits. 4 One
        of the most basic ways to protect against SNAP fraud is to prevent intentional program
        violators from reenrolling, but FNS does not require States to check FNS’ database of
        disqualified participants before admitting them into SNAP. 5 We found that because of
        this policy, in Florida alone, 160 participants who had previously been disqualified in
        other States were actively receiving SNAP benefits.


    •   973 participants received dual benefits simultaneously from another State for
        3 consecutive months. 6 Of these, 165 were enrolled in both States for 6 months or
        longer 7—and 1 was a dual participant for a year and a half. 8 This occurred because, at
        present, FNS does not have a nationwide database of participant data. Instead, the States,
        at their own discretion, utilize an optional, multi-State system, which results in significant
        gaps in coverage. For example, even though Florida utilizes this system, it did not know
        that 370 SNAP participants were simultaneously receiving benefits in Alabama because
        Alabama does not participate in the system, and thus the system does not contain
        Alabama’s data.

    •   1,555 individuals had invalid SSNs.9 The States did not always check their own
        databases for anomalies, which increased the risk of improper payments to individuals
        with invalid SSNs. Agencies attributed most of these errors to data entry errors or
        incorrect SSNs provided by participants. With potentially incorrect information, it is
        difficult for States to determine which participants may be intentionally manipulating the
        system.



4
  Florida: 160.
5
  FNS uses a database known as the Electronic Disqualified Recipient System (eDRS).
6
  Kansas: 90; Florida: 883.
7
  Kansas: 58; Florida: 107.
8
  Kansas: 1.
9
  Kansas: 720; Florida: 835.

                                                       2
       •   6 individuals were receiving dual benefits under two separate accounts. 10 State agencies
           determined that a rare IT system issue created dual records, but were unable to diagnose
           the cause.

Participants in Kansas receive on average $124.40 in benefits a month, while participants in
Florida receive an average of $141.40 a month. We estimate that these 3,572 recipients could be
receiving a total of $490,070 a month. 11

Databases provide some of the most comprehensive and robust information for fraud detection.
However, we found that because State agencies do not fully utilize them—even when they are
required to do so—they may continue to issue SNAP payments to those who are not entitled to
receive the benefit.

Taken within the context of SNAP as a whole, our findings to date do not represent large
monetary sums, but they do show areas where FNS and the States could make progress in
reducing potential improper payments. Moreover, as FNS strives to bring its rate of improper
payments below 3 percent, it will need to make use of data analysis as a straightforward way of
identifying payments that should not be made. OIG is in the process of completing similar data
analysis audits in another eight States.

In our reports, we have recommended that FNS require the Florida and Kansas agencies to
ensure they use a national database to perform death matches and SSN verifications, and that
they perform checks to make sure information is entered correctly. We also recommended the
State agencies review the individuals we identified and recover improper payments, as
appropriate. Generally, FNS agreed. To prevent interstate dual participation, the agency is in
the process of implementing regional databases. FNS also encourages States to check for
interstate dual participation by using the optional national database, but notes that some States
feel the information in this database is not timely. FNS has not yet provided timelines to




10
     Kansas 2: Florida: 4.
11
     $109,845 in Kansas; $380,225 in Florida.

                                                   3
implement checks for dual enrollment, which we require to reach agreement on management’s
decision for corrective action. 12

Additionally, we have found that FNS needs to take measures to ensure that other information
used in fraud detection efforts is accurate and reliable. In one audit, we found that the files used
to back up FNS’ Anti-Fraud Locator Electronic Benefit Transfer (EBT) Retail Transaction
system, which stores the data from EBT transactions, were incomplete and disorganized, which
could hinder fraud detection efforts. As a result of our audit, FNS has agreed to strengthen
system controls, including system redesigns and upgrades by June 2012. 13

OIG Investigations of the Illegal Trade in SNAP Benefits


Just as there are individuals willing to misrepresent themselves to receive benefits, so there are
individuals and retailers who illegally exchange food benefits for cash or other commodities.
For example, by giving a recipient $50 in cash for $100 in benefits, an unscrupulous retailer can
make a significant profit; recipients, of course, are then able to spend the cash however they like.
In some cases, recipients have exchanged benefits for drugs, weapons, and other contraband.
Not only does this illegal exchange interfere with FNS’ ability to efficiently use its resources to
feed hungry families, but it undermines the goal of providing nutritional and wholesome food to
those in need.

In FY 2011, OIG devoted about 46 percent of its investigative resources to SNAP-related
criminal investigations. In that year, our investigations resulted in 179 convictions and monetary
results totaling $26.5 million. In recent months, OIG has concluded a number of SNAP
investigations, including the following:

     •   A judge recently ordered a Brooklyn store owner to serve 2 years in jail and pay
         $1.4 million in restitution for defrauding SNAP. From September 2007 to
         September 2009, OIG agents exchanged a total of $2,664 in SNAP benefits for $1,875 in
         cash in a series of transactions demonstrating that the owner was in the habit of trafficking

12
   Audit Report 27002-0002-13, “Analysis of Florida’s SNAP Eligibility Data” (November 29, 2011) and Audit
Report 27002-0001-13, “Analysis of Kansas’ SNAP Eligibility Data” (November 23, 2011).
13
   Audit Report 27002-0001-DA, “Analysis of Supplemental Nutrition Assistance Program ALERT Database”
(November 22, 2011).

                                                      4
    in SNAP benefits. Subsequent investigation and analysis of financial data demonstrated
    that the store’s fraudulent SNAP transactions amounted to approximately $1.4 million.
    In 2009, the store owner and her son were charged with conspiracy to commit SNAP
    trafficking. The store owner pled guilty and was sentenced to 24 months’ imprisonment
    and ordered with her son to pay restitution of approximately $1.4 million and forfeiture in
    the amount of $105,524. The owner’s son fled, but he was apprehended in Florida in
    July 2010. He pled guilty in December 2010, and in June 2011, was sentenced to
    15 months’ imprisonment.

•   After being deported from the United States for food stamp fraud in the 1990s, one
    criminal illegally re-entered the country in 2000 and resumed EBT fraud. With the
    assistance of an accountant, this individual opened several stores using other individuals’
    names. The false owners of these stores signed their names on FNS documents to obtain
    authorization to accept SNAP benefits, but the subject, his wife, and his brother actually
    operated these stores. Subsequently, an OIG investigation resulted in the subject and his
    brother being charged with fraud. In June 2011, the owner was sentenced to 57 months
    of incarceration, 3 years of probation, and restitution of $1.7 million, and will again be
    subject to deportation. His brother was sentenced in May 2011 to 21 months of
    incarceration, 12 months’ probation, and restitution totaling $362,764. Court actions are
    pending against the store owner’s wife.

•   In Cincinnati, a 2-year joint criminal investigation led by OIG disclosed that the owner,
    manager, and employees of two SNAP-authorized retailers exchanged SNAP benefits for
    firearms, cash, stolen tobacco products, narcotics, and drug paraphernalia. In April 2011,
    two store employees, who were brothers, were sentenced to 51 months’ incarceration
    followed by 3 years’ supervised release, and were ordered to pay fines. Their mother was
    sentenced in May 2011 to time served, 6 months’ home confinement, and 3 years’
    supervised release after agents found EBT cards in her purse while searching for
    evidence involving her sons’ illegal SNAP trafficking. Their father was sentenced to
    probation in September 2011 after he pled guilty to SNAP fraud and receipt of stolen
    property. One of the store owners and a manager are scheduled to be tried criminally
    later this year for illegal use of SNAP benefits.

                                              5
OIG continues to work with FNS to develop new ways of detecting and investigating retailers at
high risk of committing such fraud. In particular, we are engaged in ongoing discussions with
FNS to identify ways to leverage resources with State and local partners so that they may better
address fraud involving both retailers and recipients.

Improving USDA’s IT Systems

OIG continues to provide oversight to ensure that the Department efficiently and effectively
utilizes the funds it was provided to update its IT infrastructure. In FY 2010, the Office of the
Chief Information Officer’s (OCIO) baseline budget was increased from $17 million to
$61 million for security improvements within the Department. Anticipating a total of
$64 million in FY 2011, USDA pursued a total of 14 projects that year, including network
monitoring and establishing a 24/7 security operations center. However, in April 2011, the
passage of a final continuing resolution resulted in a decrease in overall appropriations available
for the remainder of FY 2011. OCIO received a total of $40 million for FY 2011—$23 million
more than in FY 2009, but $24 million less than what it anticipated. OIG is in the process of
determining how OCIO used the additional funding it received, and if the additional funding
resulted in improved security. We can state, based on our work to date, that the 14 projects
initiated with this additional funding appear to have been significantly curtailed or delayed. In
one example, with a decreased budget, USDA halted work by contractors to implement a
$3.6 million software package. With the project not yet operational, and without access to the
administrator account, the Department effectively found itself unable to use the software tool.

Apart from this ongoing audit, OIG routinely monitors the state of IT security at USDA. Each
year, we conduct our mandated review of the Department’s compliance with the Federal
Information Security Management Act (FISMA). Bringing USDA’s IT infrastructure into full
compliance with all applicable laws and regulations is a formidable challenge, as the Department
includes 33 agencies, most with their own IT infrastructure, and operates a total of 257 discrete
IT systems. In FY 2011, USDA spent a total of $2.5 billion on IT-related expenses to maintain,
upgrade, operate, or replace these systems.

The Department requires this infrastructure to process and manage the vast amounts of
information needed to deliver benefits and services to the American public. However,

                                                 6
overseeing such a diverse array of technology presents problems for any organization, and
USDA is no exception. Since 2009, OIG has made 43 recommendations, including 10 from
FY 2011, intended to help the Department remedy longstanding deficiencies in its IT security.
Though the Department has closed only 6 of these 43 recommendations, it continues to work on
resolutions for the remaining open recommendations.

As part of our FY 2011 FISMA review, OIG noted that OCIO has tended to attempt too many
IT projects at the same time, which has resulted in USDA not meeting its project milestones.
Given OCIO’s tendency to disperse its efforts over a wide field—and thereby dilute their
effect—we have recommended that OCIO prioritize its work on a few projects, and focus on
completing those projects. To some extent, OCIO has responded. For example, in response to
issues we reported previously, the Department installed a cyber security incident detection
toolkit this year—this system should help USDA detect and respond to intrusions in its data
systems. With appropriate resources, the Department can analyze up to 150 alerts to potential
cyber attacks per week. OCIO, however, faced a decrease in its budget for this project, and was
forced to reduce the personnel it relied on to perform this work. Now, it analyzes about 15 alerts
weekly. 14

OIG also has issued a number of recent reports dealing with IT problems in the Department,
several of them dealing with contractors. Federal IT projects have historically involved
contractors, but USDA has not always adequately overseen the contracts it relies on to fulfill its
IT requirements. For instance, our audit of USDA’s Domain Name System (DNS) revealed that
OCIO needs to improve how it oversees the contractors who operate this critical system, which
routes internet traffic through the network. 15 Like any other distributed computing system,
USDA’s system is susceptible to platform-, software-, and network-level vulnerabilities. OIG
reviewed the Department’s management and security controls to protect the integrity, validity,
and availability of the information that travels across USDA’s network. We found that OCIO
has not always been diligent in ensuring that the management and security over DNS was


14
   Audit Report 50501-0002-12, “U.S. Department of Agriculture, Office of the Chief Information Officer, Fiscal
Year 2011 Federal Information Security Management Act” (November 15, 2011).
15
   DNS is a data communication mechanism that translates Internet Protocol addresses into easy-to-understand
website names, allowing users to navigate using a website name such as www.ocio.usda.gov rather than a series of
numbers such as 192.168.200.100.

                                                        7
adequate. Ultimately, these types of problems leave the Department open to cyber attacks and
the potential destruction or theft of valuable and private data. 16

USDA, like other Federal agencies and private companies, is also facing challenges concerning
integrating new technologies in a way that furthers the Department’s mission while also meeting
the most rigorous IT security requirements. The Department’s employees are increasingly
reliant on smart phones or other wireless handheld devices, but these powerful devices bring
with them new security problems related to their portability. OIG reviewed 277 of USDA’s
approximately 10,000 wireless handheld devices, and found that all of these 277 devices were
not adequately secured, as defined by guidance issued by the National Institute of Standards and
Technology. For example, we found wireless handheld devices that were not password-
protected, had no anti-virus software installed, and were not configured to encrypt removable
media. We also found that all 22 of the Department’s Blackberry servers were not secured in
accordance with Departmental guidance, which allowed users to disable their passwords or
bypass the Department’s internet content filters. Ultimately, these problems occurred because
OCIO took a decentralized approach to deploying these devices (allowing individual agencies to
select and deploy smart phones) without providing clear guidance and oversight on how to
configure and secure them, which resulted in inconsistencies. 17 OCIO accepted our
recommendations.

Conclusion

This concludes our written statement. I want to again thank the Chair and the Subcommittee for
the opportunity to testify today. We welcome any questions you may have.




16
  Audit Report 50501-0001-12, “Fast Report – Critical Domain Name Systems (DNS) Servers” (April 15, 2011).
17
  Audit Report 50501-0001-IT, “USDA’s Management and Security Over Wireless Handheld Devices” (August 15,
2011).

                                                    8
